DOE/IG-0456




               AUDIT
              REPORT


                               THE MANAGEMENT OF TANK WASTE
                               REMEDIATION AT THE HANFORD SITE




                                           JANUARY 2000



  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                                              January 21, 2000


MEMORANDUM FOR THE SECRETARY

FROM:          Gregory H. Friedman (Signed)
               Inspector General

SUBJECT:       INFORMATION: Audit Report on "The Management of Tank Waste Remediation at the
                Hanford Site"


BACKGROUND

The production of nuclear weapons materials by the Department of Energy and its predecessor agencies
generated a significant amount of highly radioactive and hazardous waste. Much of this waste, approximately
54 million gallons, is stored in 177 underground tanks at the Hanford Site in southeastern Washington State.
Hanford has the largest number of underground storage tanks in the Department of Energy complex and
many of these tanks have already leaked or are suspected to have leaked radioactive waste into the ground.
Tank waste radionuclides have reached the groundwater that flows into the Columbia River.

For a number of years, the Department has operated a massive tank waste program at Hanford to address
remediation issues relating to this waste. The Office of Inspector General conducted an audit of the
management of the Hanford tank waste program in 1993. The audit found that the tank waste program was
managed as a number of separate projects. As a consequence of not having an integrated baseline, the total
cost and affordability of the overall project was unknown even though major commitments were planned for
the construction of a processing plant. Construction of the plant never started; however, the Department
undertook a privatization strategy to purchase waste processing services from best-in-class companies
instead of building its own facilities.

In view of the estimated $47 billion life-cycle cost of the tank remediation program at Hanford and the results
of our prior review, we conducted the audit to determine whether the Department has a complete and
integrated planning, budgeting, and management approach to achieve its project goals.

RESULTS OF AUDIT

At an estimated cost of nearly $50 billion, the Hanford tank waste program is one of the largest, most
technologically challenging environmental remediation efforts ever undertaken. In this context, the audit
disclosed some progress since our 1993 review. However, we found that important elements of an
integrated management approach were not in place:
                                                    2

      •   The project baseline has never been completed or validated.
      •   A critical path, with provisions for key decision evaluations, has not been defined and included in
          project planning.
      •   Regarding project planning, decisions relating to tank closure, use of retrieval technologies, plant
          processing and retrieval rates, and the availability of double-shell tank space are among those
          that could substantially impact the cost and duration of the project.
      •   The roles and responsibilities between project contractors have yet to be finalized.
      •   Working level interfaces between the Office of River Protection (ORP) and the Richland
          Operations Office have not been formally executed.
      •   A comprehensive project management plan for the project does not exist.


We could not obtain an explanation as to why the Department had not completed a management approach
prior to the establishment of ORP. We identified several factors that have apparently hindered project
planning and must be resolved for successful project completion. First, management believed that key
dates in the Tri-Party Agreement for Hanford remediation between the Department, the State of
Washington, and the U.S. Environmental Protection Agency (2018 for completion of single-shell tank
retrieval and 2028 for completion of tank waste immobilization) were unrealistic. This led to a short-term
focus on initiating waste processing at the expense of longer-term planning. In addition, frequent changes
had been made to contracting and management approaches to the project. There was and had been a
shortage of Federal personnel to manage the tank waste project. In mid-August 1999, there were 28
vacancies in ORP including key contract management positions. Finally, funding had been inadequate to
address unresolved technical issues and required compliance work under the Tri-Party Agreement.

The Department has made progress since our last audit. Tank remediation is now managed as a single
project. Certain cost and schedule elements of the project baseline have been established and actions
were taken to implement interfacing relationships between the Department and its privatization contractor.
Also, the congressionally mandated ORP was established in January 1999 and is developing a project
management system including an integrated project baseline.

Without a complete and integrated planning, budgeting, and management approach to the tank waste
remediation project, the Department may be unable to control, predict, explain, or defend future changes
to cost and schedule. Changes have already occurred in this complex project significantly increasing life-
cycle cost estimates. For example, the life-cycle cost estimate ranging from $30 to $38 billion included in
the Fiscal Year 1996 Environmental Impact Statement has increased to $47 billion. Other changes are
likely as the baseline is further developed and refined. About $3.8 billion has already been expended on
this project. Meanwhile, Hanford remains the only Departmental site without tank waste treatment
capabilities. Without a credible integrated baseline, the Department may not have convincing evidence that
changes to milestone dates are warranted.
                                                      3


To address the issues discussed in this report, we recommended that the ORP develop and put into place an
integrated project baseline to include all activities, a critical path, and provisions for key decision evaluations.
In addition, we recommended that the ORP and Richland Operations Office negotiate realistic milestone
dates with the State of Washington Department of Ecology and the Environmental Protection Agency.

MANAGEMENT REACTION

The Assistant Secretary for Environmental Management concurred with the report's finding and
recommendations. The Assistant Secretary's comments and proposed corrective actions, which are
an integral part of this report, are included verbatim in Appendix 3.

cc: Deputy Secretary
    Under Secretary
The Management Of Tank Waste Remediation At The Hanford Site



TABLE OF
CONTENTS



                   Overview

                   Introduction And Objective......................................................................1

                   Conclusions And Observations.................................................................3


                   The Management Of Tank Waste Remediation At The
                   Hanford Site

                   Details Of Finding....................................................................................6

                   Recommendations And Comments.........................................................16


                   Appendices

                   1. Scope And Methodology..................................................................18

                   2. Past Audits .......................................................................................20

                   3. Verbatim Management Comments.....................................................22
Overview

INTRODUCTION AND   Approximately 54 million gallons of highly radioactive and hazardous waste
OBJECTIVE          are stored in 177 underground tanks at the Hanford Site in southeastern
                   Washington State. This waste, comprised of liquids, slurries, sludges,
                   saltcakes, and solids, was generated as a byproduct of the production of
                   materials for nuclear weapons beginning in 1944. There are 149 single-shell
                   and 28 double-shell tanks that range in capacity from 55,000 to 1.16 million
                   gallons. Although Hanford has the largest number of tanks and amount of
                   high-level waste in the Department of Energy complex, it is the only site
                   without treatment capabilities.

                   At least 67 single-shell tanks at Hanford are known or suspected to have
                   leaked in the past as the concrete and steel structures have deteriorated.
                   About 1 million gallons of waste have seeped into the ground and
                   radionuclides are moving faster than previously estimated. These
                   radionuclides have reached the groundwater that flows under the Hanford
                   Site and connects with the Columbia River.

                                    Hanford High-Level Liquid Waste Compared
                                            To Other Department Sites
                              By Volume            177                By Tanks

                           Others
                                      Hanford            67
                             41%                                   51
                                       59%
                                                                         9      11              4


                                                   Hanford        Savannah      Idaho        West Valley
                                                                   River
                                                              Number of Tanks        Tanks That Have Leaked




                   In 1989, the Department of Energy, the U.S. Environmental Protection
                   Agency, and the Washington Department of Ecology signed the Hanford
                   Federal Facility Agreement and Consent Order (Tri-Party Agreement). This
                   agreement was intended to ensure compliance with the Resource
                   Conservation and Recovery Act and the Comprehensive Environmental
                   Response, Compensation, and Liability Act. It established milestones and a
                   schedule for cleanup and restoration of the Hanford Site over a 40-year
                   period. Key tank waste provisions provided for the removal of waste from
                   all single-shell tanks by September 30, 2018, and immobilization of all tank
                   waste by December 31, 2028.

Page 1                                                                   Introduction And Objective
         In response to the environmental concerns at Hanford, the Tank Waste
         Remediation System program was established in Fiscal Year 1992. The
         mission of the project was to store, treat, immobilize, and dispose of tank
         waste in an environmentally sound, safe, and cost-effective manner. The
         Department initially planned to start construction of a government-owned,
         contractor-operated plant to vitrify waste in March 1993. This plant would
         convert high-level waste into glass logs that would be sealed in canisters.
         Low-activity waste was to be treated through grouting.

         The Office of Inspector General conducted its last comprehensive audit of
         the tank waste project in 1993. Our report, Department of Energy's
         Management of High-Level Waste at the Hanford Site (DOE/IG-0325),
         noted that the tank waste program was managed as a number of discrete
         projects without an integrated cost, schedule, and technical baseline. Also,
         the total cost and affordability of the overall project was unknown at that
         time even though major commitments were planned for the construction of a
         processing plant. However, construction of the plant never started and the
         Department embarked on a privatization strategy in 1994.

         In September 1996, the Department entered into contracts with two
         contractor teams to build and operate demonstration facilities. Starting in
         2002, these facilities would convert 6 percent of Hanford's tank waste into
         glass logs by 2007 and up to 13 percent of the waste by 2011. The
         Department estimated that it would cost $3.2 billion for the two fixed-price
         contracts in constant Fiscal Year 1997 dollars. These contractors would
         then compete for a contract to process the remaining waste.

         Based on a detailed review of the work of each contractor, the Department,
         in August 1998, decided to restructure the privatization contract and to
         authorize only BNFL (a subsidiary of British Nuclear Fuels, plc.) to proceed
         into the design phase. In August 2000, the Department is scheduled to
         decide whether to proceed with the construction and operations portion of
         the BNFL contract to process at least 10 percent of the tank waste. If
         BNFL is authorized to proceed, it will complete the design and construction
         of the waste treatment facilities and begin processing waste at fixed-unit
         prices. Cost estimates for the first phase of the treatment activities have
         more than doubled to $6.9 billion (in Fiscal Year 1997 dollars), while the
         schedule has been extended from 2007 to 2017.




Page 2                                                  Introduction And Objective
                  The Office of River Protection (ORP), established in January 1999,
                  administers the BNFL privatization waste processing contract. ORP also
                  administers a separate contract with Lockheed Martin Hanford Company
                  (Lockheed Martin), which is responsible for tank stabilization and waste
                  storage, retrieval of the tank waste, interim storage of the high-level vitrified
                  immobilized waste, and onsite disposal of immobilized low-activity waste.
                  The Department's official cost estimate for the tank waste project is


                                       Office of Environmental
                                             Management



                           Richland       Coordination         Office of River
                        Operations Office                        Protection


                                                                           Lockheed Martin
                                                     BNFL Inc.
                                                                           Hanford Company


                  $47 billion. In 1998, the project represented approximately 18 percent of
                  the Department's total environmental liability. The official schedule indicates
                  that waste from the single-shell tanks will be removed by September 30,
                  2018, and immobilization of all tank waste will occur by December 31,
                  2028, in accordance with the Tri-Party Agreement. In consideration of the
                  project's importance, cost, significant changes in management and
                  contracting approaches, and the results of our prior review, the objective of
                  this audit was to determine whether the Department has a complete and
                  integrated planning, budgeting, and management approach to achieve its
                  project goals.


                  Although progress has been made, the Department does not have a
CONCLUSIONS AND   complete and integrated planning, budgeting, and management approach to
OBSERVATIONS      the tank waste remediation project. Management is working to develop
                  such a system, but much more needs to be done to bring this project into
                  conformance with Departmental project management guidelines. Without
                  such an approach, the Department may not meet key milestones, costs could
                  substantially escalate, and continued damage to the environment may occur.


Page 3                                                           Introduction And Objective/
                                                              Conclusions And Observations
         There have been a number of positive changes since our last audit. The tank
         waste cleanup effort, now called the River Protection Project (RPP), is being
         managed as one project. Many cost and schedule elements and roles and
         responsibilities between the Department and BNFL have been established.
         In addition, ORP has provided increased management attention to tank
         waste remediation and was developing a project management plan. Despite
         these accomplishments, key project management components have yet to be
         established and put into place to control the cost, schedule, and technical
         direction of the project.

         The project baseline has undergone significant changes with the evolution of
         the privatization approach, but had not been completed nor validated. A
         complete project critical path had not been established nor had key decision
         points been defined. Also, design work for the vitrification facility was
         behind schedule. Finally, interfaces between Lockheed and BNFL and an
         overall project management plan have not been finalized.

         We could not obtain an explanation as to why the Department had not
         completed a management approach prior to the establishment of ORP. In
         our discussions with project managers, a number of apparent contributing
         factors surfaced. First, management believed that key dates in the Tri-Party
         Agreement (2018 for completion of single-shell tank retrieval and 2028 for
         completion of tank waste immobilization) were unrealistic. This belief led to
         management's short-term focus on initiating waste processing at the expense
         of longer-term planning. In addition, frequent changes have been made to
         contracting and management approaches to the project. There had also
         been a shortage of Federal personnel to manage the tank waste project. In
         mid-August 1999, there were 28 vacancies in ORP including key contract
         management positions. Finally, funding has been inadequate to address
         unresolved technical issues and required compliance work under the Tri-
         Party Agreement.

         The absence of an integrated project baseline, a critical path, interface
         agreements between project principles, and a comprehensive project
         management plan have put the tank waste project at risk. The history of the
         tank waste project demonstrates its susceptibility to cost increases and
         schedule delays. Sound project management tools are needed for controlling
         project cost and schedule growth, reducing environmental risk, preparing
         defensible budgets, and establishing meaningful performance measures. Such
         tools will also enhance the Department's credibility with its stakeholders. To

Page 4                                             Conclusions And Observations
         facilitate the future success of the tank waste project, this report contains a
         series of recommendations to strengthen project management.

         Management should consider the issues discussed in this report when
         preparing the yearend assurance memorandum on internal controls.


                                                     (Signed)
                                                   ________________________
                                                   Office of Inspector General




Page 5                                               Conclusions And Observations
The Management Of Tank Waste Remediation At The Hanford Site

Improvement In Project   The Department had not developed a complete and integrated management
Management Is Needed     approach to achieve its goals for the $47 billion RPP at Hanford. Key
                         project management components have yet to be developed and implemented
                         to control the cost, schedule, and technical direction of the project.
                         Currently lacking are a complete and fully integrated project baseline,
                         finalized interface agreements between contractors and other organizational
                         elements involved in the project, and a comprehensive project management
                         plan.

                                                  Integrated Project Baseline

                         The project baseline is not fully integrated or complete. In addition, there
                         has not been an independently validated baseline for this project in its 7
                         years. An integrated project baseline provides the foundation for a project
                         from start to finish and is needed to manage changes in scope as well as
                         monitor supporting contractors. The baseline should address three key
                         elements of the project: technical, schedule, and cost. However, in the case
                         of the RPP the technical and schedule elements had not been completed and
                         integrated into the project baseline. To illustrate, a viable "end-state
                         definition" – how much, if any, and what types of waste should remain in
                         which tanks at project's end – had not been developed. Technical, schedule,
                         and cost elements are each dependent on the end-state definition. In
                         addition, facilities technical design work had not progressed as planned.
                         Further, a critical path and decision points have not been established to
                         address unresolved technical waste retrieval, processing, and storage issues
                         in the schedule element.

                         A viable end state definition for tank closure was needed. The Tri-Party
                         Agreement specified that 99 percent by volume should be retrieved, but the
                         Department had not determined whether this was technically achievable or
                         even desirable. New technologies are needed to retrieve waste from tanks
                         in an environmentally sound manner. Furthermore, even if 99 percent
                         retrieval is technically attainable, it may not be desirable considering cost,
                         exposure to radiation, and technical practicability. Due to the differences in
                         waste types, processing methods, and waste transformations over the last
                         several decades, waste volume does not necessarily equate to environmental
                         risk. A Departmental study showed, for example, that 90 percent of the
                         long-term risk inventory was contained in approximately 68 tanks. The
                         amount of waste that must be processed dictates the size and number of
                         vitrification plants. Requirements for waste transfers, tank farm upgrades,


Page 6                                                                            Details Of Finding
         and obtaining retrieval technologies are also dependent upon the end-state
         definition.

         We also noted a likely shortfall in the design work that forms the foundation
         of the BNFL technical baseline. Under the BNFL contract, construction of
         the vitrification plant is to begin after the design work is approximately 30
         percent complete (August 2000). At the 30 percent stage, all major
         processes and systems would have been designed. According to ORP
         personnel, it now appears that BNFL's design work will be, at most, 25
         percent complete by August 2000. Shortfalls in design should be a matter of
         concern since simultaneous design, construction, and technology testing only
         increases the need for additional cost and schedule contingencies that can
         increase prices for treated waste. It also raises the likelihood of additional
         cost increases during the balance of the project.

         Additionally, ORP had not established a critical path or defined decision
         points to address unresolved technical waste retrieval, processing, and
         storage issues in the schedule baseline. Unanswered technical questions exist
         and must be addressed at specific points in time to allow for proper planning
         and budgeting decisions and to avoid any potential negative impacts to
         project technical scope, cost, and schedule. The following illustrate the
         importance of some of these issues to project planning:

                  Retrieval Technologies for Single-Shell Tanks – For the 67 tanks
                  that are known or suspected to have leaked in the past, the use of
                  the current retrieval technology, hydraulic sluicing, may not be
                  advisable due to the potential for further contamination of the
                  surrounding environment.1 Resolution of the retrieval issue should be
                  reflected on a critical path because it could significantly change the
                  technical scope, schedule, and cost of activities currently estimated at
                  over $6 billion.

                  Plant Processing and Retrieval Rates – To meet the present
                  schedule, plants would need to process waste at an unprecedented
                  rate of 120 metric tons of glass per day. At this rate, according to
                  an in-house study, contracting for expanded processing capacity
                  must begin in 2002 in order to meet the Tri-Party Agreement
                  milestone date of December 31, 2028, for

         ______________________________
         1
           With sluicing, high-velocity streams of water mix up the waste allowing it to be
         pumped from the tanks.



Page 7                                                                    Details Of Finding
                  complete tank waste immobilization. Questions exist as to whether
                  this level of processing can be attained and whether facilities with
                  such a large capacity would be efficient.2 Furthermore, processing
                  capacity is affected by the delivery rate of waste feed that is, in turn,
                  constrained by the limited number of tanks that can be retrieved at
                  any one time. Critical decision points for timely resolution of this
                  issue have not been established and incorporated into the schedule
                  baseline.

                  Adequacy of Available Tank Space – Similarly, decision points
                  regarding potential storage issues have yet to be established and
                  incorporated into the schedule baseline. ORP may not be able to
                  adequately protect the groundwater unless it builds additional tanks.
                  Presently, only the 28 double-shell tanks can be used to accept
                  waste. However, space is limited in these tanks and is further
                  constrained by requirements to store new waste from environmental
                  cleanup and from single-shell tank stabilization. Compounding this
                  problem are differences in waste compositions (what can be mixed
                  with what) and the need to provide four specific waste feed formulas
                  to the processing plant. Additional tanks may develop problems,
                  such as the current problem with tank SY-101. Because of its rising
                  crust, 100,000 gallons of waste must be transferred from SY-101
                  requiring the unplanned use of already limited serviceable tank space.
                  Due to the long lead-time for budgeting, contracting, and
                  constructing new tanks and the significant costs involved, planning for
                  addressing this issue is crucial and decisions must be timely.3

         A sound baseline and critical path are important for controlling the technical
         direction, cost, and schedule of this project. In their absence, management
         had begun development of a logic system which (1) graphically showed the
         sequencing of major project activities, and
         (2) was designed to generate technical, cost, and scheduling data for the

         ______________________________
         2
           To put processing levels in perspective, the Department's Defense Waste Processing
         Facility at Savannah River began radioactive waste operations in March 1996. As of
         December 31, 1998, that facility had produced over 2 million pounds of high-level
         waste glass. This equates to a processing rate of about 330 metric tons per year.

         3
           It takes 5–6 years after the decision is made to completely construct a double-shell
         tank with an estimated cost to build a new 1 million gallon tank ranging from $60-$172
         million.



Page 8                                                                   Details Of Finding
         initial baseline. As of August 1999, however, supporting details were still
         being developed and the logic system was incomplete. Until the logic system
         is complete and priced out, any life-cycle estimates will be uncertain.

                       Interface Agreements Between Project Principles

         ORP had also not fully defined roles and responsibilities (interfaces) within
         and between the organizations responsible for the day-to-day execution of
         the project. Successful management of the project requires the establishment
         and management of interfaces within ORP and between the different
         participants: ORP, Richland Operations Office (Richland), Lockheed
         Martin, and BNFL.

         An internal memorandum of agreement between ORP, Richland, and the
         Office of Environmental Management had been drafted regarding the
         organizational authorities, roles and responsibilities, and reporting structure
         for ORP. However, working level interfaces between ORP and Richland
         and within ORP need to be finalized. This is particularly important because
         Richland is responsible for the Hanford Site as a whole and all other site
         projects and integration. For example, ORP will have to work with Richland
         on permit applications for the BNFL processing facilities.

         Interfaces between ORP and BNFL have been established, but
         corresponding agreements have not been finalized between ORP and
         Lockheed Martin. It will be important for Lockheed Martin to operate
         under a clearly defined set of roles and responsibilities. However, the plan
         defining Lockheed Martin's interfaces with ORP for carrying out their project
         responsibilities was under development during our review. Additionally,
         interfaces between Lockheed Martin and BNFL have not been established.
         Interfaces with clearly defined roles and responsibilities are crucial to ensure
         a systematic waste feed to BNFL by Lockheed Martin, and the acceptance
         of immobilized waste from BNFL for storage and disposal by Lockheed
         Martin.

                                   Project Management Plan

         In addition, ORP had not developed a comprehensive management plan
         defining the integrated project baseline with a fully developed critical path,
         management controls, and a framework for integration. Since its inception in
         Fiscal Year 1992, the tank waste program had functioned without a


Page 9                                                             Details Of Finding
                            formalized project management plan. During our audit, we noted an ongoing
                            effort by ORP to develop a comprehensive and integrated project
                            management plan. This effort was referred to as the Strategic System
                            Execution Plan. This plan is intended to be a blueprint for managing all
                            aspects of the project. In developing this plan, ORP recognized that much
                            remains to be done to put in place the organization, planning, staffing, and
                            financial arrangements necessary to enter the next phase of the BNFL
                            contract. An analysis performed internally by ORP personnel identified gaps
                            in project management including the need to: develop a life-cycle critical
                            path at the strategic level, institute additional performance measures, build a
                            roadmap for project alternatives at the baseline management level, and
                            establish integrating product teams at the work management level.



An Integrated Management    Departmental guidance and industry standards prescribe the framework for
Approach Is Necessary For   project management. The Department's project-based management system
A Project's Success         defines and requires the development of integrated site baselines with site
                            critical paths, and project management plans. Additional Departmental
                            guidance also emphasizes the importance of planning, integrated baselines, a
                            critical path, and effective interfaces to the success of a project. Industry
                            standards prescribe the critical path method to schedule activities and
                            logically link them in a network that focuses attention on those crucial to
                            project completion. In addition, the Department has made commitments to
                            the Congress regarding this project and its management.

                            A project baseline consists of the technical, cost, and schedule baselines.
                            Sound integrated site baselines provide a basis for controlling scope and cost
                            growth and support the preparation of defensible budgets. In addition to
                            being the starting point for the Office of Environmental Management budget
                            process, the project baseline is also used in the identification of critical
                            project activities and the development of meaningful performance measures
                            and contract incentives. A critical path identifies the longest sequence of
                            connected activities necessary for project completion and should be included
                            in schedule baseline. With such a path, management attention is focused on
                            those activities and decisions crucial for project success. Clearly defined
                            roles and responsibilities, in turn, are critical to the successful execution of
                            projects on the path. Site critical paths, built from individual projects critical
                            paths, are used by the Office of Environmental Management as a tool to
                            focus project management efforts on achieving site cleanup and closure and
                            to evaluate and take action to reduce programmatic risk.


Page 10                                                                                Details Of Finding
                         Departmental reports to the Congress acknowledged the need for project
                         integration and outlined a management approach and plan. The project
                         management approach set forth in a July 1998 report and in a January 1999
                         ORP Integrated Management Plan emphasized the need to ensure integration
                         across all RPP and Hanford Site activities. Included in the ORP Integrated
                         Management Plan was a commitment to prepare a project management plan
                         that would define the project baseline, management controls, and how the
                         project is integrated. The July 1998 report also stipulated that approximately
                         30 percent of the vitrification facilities design was to be completed prior to
                         proceeding with the construction and operations phase of the BNFL
                         contract.


                         Department officials were generally aware of these project management
Challenges To Project    shortcomings. However, we could not obtain an explanation as to why the
Management Integration   Department had not completed a management approach prior to the
Exist                    establishment of ORP. Based on discussions with project managers and
                         other analysis, we identified several factors that apparently hindered project
                         planning. First, management believed that certain milestones were unrealistic.
                         This led to an environment in which management's attention was focused on
                         the more definitive short-term activities. Additionally, frequent changes in
                         contracting and management of the project, shortages in Federal staff, and
                         funding constraints have also adversely affected project management and
                         long-term planning. Essentially, management's main focus had been on the
                         next 10 years and initiating waste processing, rather than on all activities
                         required for successful completion of the project.

                                                 Unrealistic Milestone Dates

                         The 1989 Tri-Party Agreement contained an enforceable action plan and
                         milestone dates for cleanup of the Hanford Site. Management believed that
                         key dates in the Tri-Party Agreement -- 2018 for completion of single-shell
                         tank retrieval and 2028 for completion of tank waste immobilization -- were
                         unrealistic. This apparently led to a short-term focus on initiating waste
                         processing at the expense of longer-term project planning. The milestone
                         schedule was established before the technical scope -- the work to be done
                         and how to do it -- was determined for this project. Representatives from
                         the Washington State Department of Ecology and the U.S. Environmental
                         Protection Agency also acknowledged that these milestones were unrealistic.


Page 11                                                                          Details Of Finding
          However, the Department did not choose to place a discussion of these
          milestones on the agenda of the most recent Tri-Party Agreement
          renegotiations.

          In January 1999, a team of representatives from the Department, Lockheed
          Martin, the Pacific Northwest National Laboratory, and BNFL studied six
          options for completing the tank waste project. The team concluded that the
          single-shell tank waste retrieval milestone of 2018 was not technically
          feasible under present safety and operational constraints and with current
          retrieval methods. The team recommended proceeding with the option that
          could complete waste processing by 2047 rather than 2028. Although two
          options had the potential for processing the waste by 2028, both had
          significant issues and constraints, including:

              •   steep increases in annual funding due to the shorter timeframe,
              •   waste retrieval rates that exceeded current capability,
              •   inefficient use of plant capacity, and
              •   lack of demonstrated ability to retrieve 99 percent of the waste
                  by volume.

                                       Project Approach

          Frequent changes in contracting and management of this project also
          impeded long-term planning. These changes have required corresponding
          adjustments in the project management. The evolution of ORP as manager
          of the project and integrator of the activities of multiple contractors and a
          shortage of Federal staff to manage the project were additional complicating
          factors.

          The contracting strategy for this project had been restructured twice in the
          last 6 years. The Department initially planned to start construction of a
          government-owned vitrification plant in March 1993 to convert tank high-
          level waste into glass logs. However, in 1994 a new privatization
          demonstration strategy was initiated. Fixed-price contracts were awarded to
          two contractor teams in September 1996 for development of preliminary
          facility designs and project plans. Upon completion of these activities, only
          one contractor (BNFL), was chosen to proceed into a 20-month conceptual
          design period.

          In addition to the changes in contracting approach, the Department's


Page 12                                                           Details Of Finding
          management approach has also changed. Concerned about the
          Department's ability to manage the Tank Waste Remediation System
          program, the Congress directed that the Department establish the ORP at
          Hanford to manage all aspects of the project. The Department established
          ORP in January 1999. Additionally, rather than report directly to the
          Richland Operations Office, as was the case under the Tank Waste
          Remediation System program, the ORP Manager reports directly to the
          Department's Assistant Secretary for Environmental Management. This
          reorganization caused changes in planning and resulted in vacancies in critical
          positions.

          Successful execution of the project requires effective management by the
          Department and ORP in particular. Sufficient staff with the required
          expertise to manage the privatization and prime contracts is key for project
          success. ORP was to evaluate and negotiate the business and financing
          agreement with BNFL to establish fixed unit prices for waste treatment and
          immobilization services as well as manage the Lockheed Martin contract.
          However, vacancies existed in the ORP group responsible for these
          functions as well as in other key activities.

          At the time of its establishment, the Department analyzed ORP staffing needs
          and authorized a Federal staff of 104, including 5 in a contract administration
          group. Recruiting action was expected to have been completed by the
          spring of 1999. As of mid-August 1999, 28 vacancies existed including a
          Fixed Price Specialist, a Senior Contract Specialist, and two Junior Contract
          Specialists. Moreover, the need for an additional Contracting Officer to
          administer the Lockheed Martin contract arose as the result of an agreement
          with the Richland Operations Office giving ORP direct control over the
          contract.

                                        Funding Shortfalls

          Recent funding decisions have also precluded addressing unresolved
          technical issues. For instance, Fiscal Year 1999 funding for the Hanford
          Tanks Initiative to develop retrieval technologies was reprogrammed for use
          in other activities. Further, there was no provision in the Fiscal Year 2000
          budget for demonstrating new retrieval technologies. Improved retrieval
          technologies are needed to accomplish the retrieval portion of the project.
          Moreover, current estimates indicate that funding shortfalls may continue to
          exist. For each of the last 5 years, there had been about $50 million in


Page 13                                                            Details Of Finding
                           unfunded Tri-Party Agreement and other compliance work alone. Current
                           estimates indicate that the shortfall for compliance may widen to between
                           $200-$400 million in each of the years 2003 through 2006. While a
                           remedy for this problem obviously requires congressional action, we
                           concluded that the Department could be more successful in its requests for
                           additional funding if it had a validated baseline and the other analytical tools
                           called for in this report.


                           The magnitude and complexity of this project make it unique among
Improved Project           challenges facing the Department of Energy. In fact, this project dwarfs
Management Could Better    most others. As a consequence, some cost and schedule variances are
Control Overall Cost And   probably unavoidable. However, without a complete and integrated
Reduce Risk                planning, budgeting, and management approach to the tank waste
                           remediation project, the Department may be unable to control, predict,
                           explain, or defend future changes to cost and schedule. In our view,
                           absence of a complete and integrated approach to the tank waste
                           remediation project could cause further increased life-cycle cost estimates,
                           increased contingency estimates, increased risks to the environment, loss of
                           congressional support, and damage to the Department's credibility.
                           Shortcomings in project management can also result in ineffective
                           performance measures and contract incentives.

                           Changes have already occurred in this complex project significantly
                           increasing life-cycle cost estimates. The life-cycle cost estimate ranging
                           from $30 to $38 billion included in the Fiscal Year 1996 environmental
                           impact statement has increased to $47 billion. Until the baseline is complete
                           and priced out, further increases in life-cycle cost estimates are likely.

                           One area of potential higher costs, for example, is contingency planning.
                           Contingency is added to cover uncertainties such as incomplete project
                           definition, design shortfall, and technical complexity. Planning estimates
                           totaling approximately $22 billion for three major components of this
                           project indicated that contingencies totaled about $4.9 billion. This
                           contingency estimate reflected a
                           42 percent increase to operating costs for uncertainties associated with
                           successful retrieval of waste in the tanks as well as the incomplete design
                           data. It also reflected increases of approximately 39 percent to
                           construction costs for the design uncertainties. Properly addressing the
                           need for a viable end-state definition, additional design work, and critical
                           path to address unresolved technical issues can reduce the need for cost

Page 14                                                                               Details Of Finding
          contingencies.

          Decisions based upon unrealistic assumptions can also lead to increased
          environmental risk. The groundwater under more than 85 square miles of the
          site is contaminated above current standards. The migration of such
          materials already presents a threat to the public health, welfare, and the
          environment. Approximately 70,000 people use groundwater and surface
          water obtained within 3 miles of the Hanford Site for drinking.
          Programmatic decisions made based upon the use of unrealistic planning
          assumptions could further exacerbate the environmental risk. Extending the
          use of single-shell tanks already beyond design life as well as double-shell
          tanks near or beyond their design life would increase risk to workers, the
          public, and the environment.

          Project management shortcomings may also affect funding. While
          privatization funding has been consistent with recent outlays, the Congress
          now has to address a privatization budget of $606 million for starting
          construction of the vitrification facilities in Fiscal Year 2001. This is a
          significant increase over the Fiscal Year 2000 budget of
          $106 million. Future privatization funding requirements will be even higher.
          Favorable congressional action on such funding requests could be impaired
          by continued project management shortcomings.

          Poor project management damages the Department's credibility with its key
          stakeholders, such as the State of Washington and the Environmental
          Protection Agency. Beginning in 1989, for example, the Department agreed
          to certain milestones for tank waste cleanup as part of the Tri-Party
          Agreement. Officials in all three parties apparently now believe that some of
          those milestones are unrealistic. Without a credible integrated baseline and
          critical path, however, the Department cannot positively demonstrate what is
          achievable, what uncertainties remain to be resolved, and what possible
          effect resolution of those uncertainties may have on project cost and
          schedule. In our 1993 report, we pointed out that the State of Washington,
          in a related context, required that a request for delay be accompanied by
          clear and convincing evidence justifying the delay, as well as draft dates for
          alternative milestones. Without project management components in place,
          the Department may not have convincing evidence that changes to milestone
          dates are warranted.

          Finally, the absence of an integrated baseline identifying a critical path


Page 15                                                              Details Of Finding
                  eliminated the basis for establishing meaningful performance measures.
                  Critical paths identify those activities that are crucial for completion of the
                  project. Properly measuring progress and incentivizing the completion of
                  these activities can help prevent negative impacts to the project cost and
                  schedule.


                  The Assistant Secretary for Environmental Management should:
RECOMMENDATIONS
                  1. Require the Manager, ORP to:

                      a. Complete development and implementation of the integrated project
                         baseline to include all activities, a critical path, and provisions for key
                         decision evaluations, and have Departmental Headquarters validate
                         the end product.

                      b. Re-evaluate the risk of proceeding into construction of the
                         vitrification facilities at Hanford in August 2000 when the design of
                         these facilities is expected to be less than 30 percent complete.

                      c. Develop and implement interfaces between project principles.

                      d. Finalize development and implementation of an overall project
                         management plan.

                      e. Fill critical contract administration vacancies.

                  2. After the development of a fully integrated baseline, have the Manager,
                     ORP, and Manager, Richland Operations Office, negotiate new
                     milestone dates, if required, for single-shell tank retrieval and completion
                     of tank waste immobilization and re-evaluate the end-state definition for
                     closing tanks with the State of Washington Department of Ecology and
                     the Environmental Protection Agency.

                  3. Work with the Congress to fund the RPP sufficiently to meet all other
                     Tri-Party Agreement requirements. If unsuccessful, have the Manager,
                     ORP, and Manager, Richland Operations Office, expand negotiations
                     with the State of Washington Department of Ecology and the
                     Environmental Protection Agency to address any other milestone dates
                     requiring revision because of funding shortfalls.


Page 16                                                               Details Of Finding/
                                                         Recommendations And Comments
MANAGEMENT   The Assistant Secretary for Environmental Management concurred with the
REACTION     report's finding and recommendations. The Assistant Secretary's comments
             and proposed corrective actions are included verbatim in Appendix 3.


             Management's proposed corrective actions are responsive to the report's
AUDITOR      recommendations. The report has also been revised to incorporate technical
COMMENTS     clarifications and corrections included in the comments provided by the
             Assistant Secretary for Environmental Management.




Page 17                                         Recommendations And Comments
Appendix 1

SCOPE         The audit was performed at Department Headquarters in Washington, DC
              and Germantown, MD; the Richland Operations Office and ORP in
              Richland, WA; and the GTS Duratek Pilot Melter Facility in Columbia, MD,
              from April to November 1999.

METHODOLOGY   To accomplish the audit objective we:

              •   Reviewed Departmental and external assessments of the Tank Waste
                  Remediation System program;

              •   Reviewed applicable laws and regulations including Departmental
                  requirements and good practice guides related to program and project
                  management;

              •   Reviewed the ORP Integrated Management Plan, provisions of the
                  Hanford Federal Facility Agreement and Consent Order (Tri-Party
                  Agreement), and the privatization contract with BNFL;

              •   Held discussions with personnel from the Headquarters Office of the
                  Deputy Assistant Secretary for Waste Management and Office of the
                  Associate Deputy Secretary for Field Integration;

              •   Held discussions with field-level representatives from the Richland
                  Operations Office, ORP, and its supporting contractors, the
                  Environmental Protection Agency, and the Washington Department of
                  Ecology;

              •   Evaluated the Tank Waste Remediation System Program Logic, Baseline
                  Plan and Strategic Options, and related performance agreements;

              •   Examined program office documentation including the Fiscal Year 1999
                  Tank Waste Remediation System Multi-Year Work Plan, Fiscal Year
                  1999 Performance Expectation Plan, Fiscal Year 2000 Annual
                  Performance Plan, and cost estimates for privatization functions;

              •   In accordance with the requirements of the Government Performance
                  and Results Act reviewed the project performance measures; and
              •   Met with the Project and Operations Managers for the GTS Duratek




Page 18                                                      Scope And Methodology
              Pilot Melter and toured their facility to obtain information on the current
              status and performance of the pilot melter.

          The audit was performed in accordance with generally accepted government
          auditing standards for performance audits and included tests of internal
          controls and compliance with laws and regulations to the extent necessary to
          satisfy the audit objective. Because our review was limited, it would not
          necessarily have disclosed all internal control deficiencies that may have
          existed at the time of our audit. We did not conduct a reliability assessment
          of computer-processed data because such data was not relied upon during
          the audit.

          The firm of KPMG LLP participated with the Department's Office of
          Inspector General in conducting the audit.

          We discussed our findings with the Assistant Secretary for Environmental
          Management, the ORP Manager, and members of their respective staffs.
          Management waived an exit conference on this audit effort.




Page 19                                                     Scope And Methodology
Appendix 2

                       PAST AUDITS RELATING TO TANK WASTE ACTIVITIES
                                    AT THE HANFORD SITE


•   Department of Energy Management of High-Level Waste at the Hanford Site,
    (DOE/IG-0325, April 14, 1993). The Department managed the Hanford tank remediation system as a number
    of separate projects not fully integrated into one major system acquisition. Total costs, therefore, were
    obscured and the Department had not clearly defined system requirements or developed overall cost and
    schedule baselines. Also noted were a vast array of uncertainties, including tank safety and inadequate
    information about the makeup of tank waste, that could significantly affect the program's cost and ultimate
    success. In response to the audit recommendations, the Under Secretary of the Department designated the
    Tank Waste Remediation System Program as one major system acquisition. Management also agreed to
    minimize funding commitments to the construction of a vitrification plant at Hanford to the extent practical while
    a rebaselining effort was being completed and project costs were identified.

•   Nuclear Waste: Department of Energy's Hanford Tank Waste Project - Schedule, Cost and
    Management Issues, General Accounting Office (GAO) Report RCED-99-13, October 8, 1998. This audit
    was conducted in response to a request from the House of Representatives Chairman of the Committee on
    Commerce and the Chairman of the Subcommittee on Oversight and Investigations, Committee on Commerce,
    to review a revised Departmental approach to addressing the waste disposal problem at Hanford through a
    privatization contract. The report discussed (1) how the Department's current approach changed from its
    original privatization strategy; (2) how that change affected the project's schedule, cost, and estimated savings
    over conventional Departmental approaches; (3) what risks the Department was now assuming with this change
    in approach; and (4) what steps the Department was taking to carry out its project oversight responsibilities.
    Given the technical uncertainties stemming from the fact that the proposed waste treatment technology had yet
    to be tested at production levels on Hanford's complex and unique wastes, and management challenges such as
    obtaining needed contracting expertise, GAO concluded that the Department's financial risks were great.

•   Nuclear Waste: Understanding of Waste Migration at Hanford is Inadequate for Key Decisions, GAO
    Report RCED-98-80, March 13,1998. The audit report stated that the Department's understanding of how
    wastes move through the vadose zone to the groundwater was inadequate to make key technical decisions on
    how to cleanup the wastes at the Hanford Site in an environmentally sound and cost-effective manner. The
    Department had no strategy in place for investigating the vadose zone. With the emerging evidence of waste
    migration from leaking tanks to the groundwater, the Department began to develop a strategy to investigate the
    vadose zone. While recognizing that the Department's management had made a strong commitment to dealing
    with vadose zone issues, GAO expressed the opinion that past actions had not been encouraging. GAO
    recommended that the Secretary of Energy develop a comprehensive vadose zone strategy for the Hanford Site
    that would address cleaning up the high-level waste tank farms and the cribs, ponds, trenches, and other waste
    sites. GAO also recommended that the Secretary of Energy reevalute the Department's proposed strategy of
    removing additional wastes from single-shell tanks by injecting pressurized water into the tanks.
•   Nuclear Waste: Management and Technical Problems Continue to Delay Characterizing Hanford's

Page 20                                                                                                 Past Audits
    Tank Waste, GAO Report RCED-96-56, January 26, 1996. The audit report stated that continuing delays in
    characterizing Hanford's high-level waste led the Department to conclude in September 1995 that it could not
    comply with the agreed-upon deadlines contained in its Tri-Party Agreement with the State of Washington and
    the Environmental Protection Agency. Westinghouse Hanford Company, the Department's contractor, had
    been unable to characterize the contents of any of the tanks at Hanford sufficiently to declare them ready for
    remediation. GAO concluded that delays or inadequacies in characterization could drive up the cost of other
    parts of the program and increase the risk that designers could rely on incomplete or inadequate information as
    they developed treatment processes and facilities.

•   Department of Energy: National Priorities Needed for Meeting Environmental Agreements, GAO
    Report RCED-95-1, March 3, 1995. The objective of the audit was to identify factors that hampered
    progress in the cleanup of DOE's nuclear weapons complex. Audit work was conducted at a number of the
    Department's field sites including the Hanford Site. GAO found that progress in cleaning up the weapons
    complex, as measured by the Department's completion of milestones set forth in agreements with regulators,
    had been slow because many agreements had turned out to be unrealistic and changes had proved difficult and
    time-consuming to negotiate. The report specifically referenced the Hanford Tri-Party Agreement signed in
    1989 and noted that because the Department was unable to meet the milestones in it, the parties agreed to a re-
    negotiation of its provisions in January 1994. However, GAO concluded that even the revised milestones may
    not be realistic. GAO recommended that the Secretary of Energy (1) set national priorities for cleaning up the
    Department's contaminated sites using data gathered during an ongoing risk evaluation as a starting point, and
    (2) initiate discussions with regulators to renegotiate milestones that no longer reflect national priorities.

•   Nuclear Waste: Further Improvement Needed in the Hanford Tank Farm Maintenance Program, GAO
    Report RCED-95-29, November 8, 1994. The audit was conducted to address concerns about the Hanford
    tank farm maintenance program expressed by the Senate Committee on Governmental Affairs. The audit
    concluded that some progress had been made in strengthening the tank farm maintenance program with the
    number of uncompleted maintenance projects reduced from 1,969 in January 1994 to 1,517 in October 1994.
    However the remaining backlog of projects was judged still too great to ensure that needed maintenance could
    be done in a timely manner. A new approach, called the "zone concept" was implemented at Hanford in
    October 1993 to improve the productivity of its tank farm maintenance. As implemented, however, the "zone
    concept" did not address the issues of reducing the time spent in preparing and closing out maintenance
    projects, developing benchmarks for measuring performance, and gathering and analyzing information about
    how much time and money are spent on individual work projects. GAO concluded that approaches at other
    Departmental sites offered opportunities for reducing the backlog.




Page 21                                                                                               Past Audits
Appendix 3




Page 22      Verbatim Management
                       Comments
Page 23   Verbatim Management
                    Comments
Page 24   Verbatim Management
                    Comments
Page 25   Verbatim Management
                    Comments
                                                                                IG Report No. DOE/IG-0456

                                      CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to
make our reports as responsive as possible to our customers' requirements, and, therefore, ask that you consider
sharing your thoughts with us. On the back of this form, you may suggest improvements to enhance the
effectiveness of future reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the audit
   would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this report to
   assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more clear to
   the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this report
   which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about
your comments.

Name _____________________________               Date __________________________

Telephone _________________________              Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                                        Office of Inspector General (IG-1)
                                              Department of Energy
                                             Washington, DC 20585

                                           ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please
contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost effective
 as possible. Therefore, this report will be available electronically through the Internet at the following alternative
                                                        address:

                       U.S. Department of Energy Office of Inspector General, Home Page

                                               http://www.ig.doe.gov

                        Your comments would be appreciated and can be provided on the
                               Customer Response Form attached to the report.
